No. 19-1280
In the Supreme Court of the United States
__________________
THE IDAHO DEPARTMENT OF CORRECTION; HENRY
ATENCIO, in his official capacity as Director of the
IDOC; JEFF ZMUDA, in his official capacity as Deputy
Director of the IDOC; AL RAMIREZ, in his official
capacity as Warden of the Idaho State Correctional
Institution; and SCOTT ELIASON, M.D.,
Petitioners,
v.
ADREE EDMO, aka Mason Edmo,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

__________________
REPLY IN SUPPORT OF
SUGGESTION OF MOOTNESS
__________________

DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN
PARSONS BEHLE & LATIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Petitioner
Scott Eliason, M.D.

September 11, 2020

LAWRENCE G. WASDEN
Attorney General State of Idaho
BRIAN KANE
Assistant Chief Deputy
MEGAN A. LARRONDO
Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
MOORE ELIA KRAFT & HALL, LLP
P.O. Box 6756
Boise, Idaho 83707
(208) 336-6900
brady@melawfirm.net
Counsel for Petitioners
the Idaho Department of Correction
and Henry Atencio, Jeff Zmuda,
and Al Ramirez, in their official
capacities

i
TABLE OF CONTENTS
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
1. The appeal is not saved from mootness, as Edmo
erroneously suggests, merely because Edmo is to
receive postsurgical treatment. . . . . . . . . . . . . . . 2
2. Vacating the lower courts’ orders and injunction
against Petitioners is the most appropriate and
equitable solution under the unique
circumstances of this case . . . . . . . . . . . . . . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF AUTHORITIES
CASES
Blue Water Navy Vietnam Veterans Ass’n, Inc. v.
Wilkie, 139 S. Ct. 2740 (2019) . . . . . . . . . . . . . . . 8
Calderon v. Moore,
518 U.S. 149 (1996). . . . . . . . . . . . . . . . . . . . . . 5, 6
Camreta v. Greene,
563 U.S. 692 (2011). . . . . . . . . . . . . . . . . . . . . . 6, 9
Chafin v. Chafin,
568 U.S. 165 (2013). . . . . . . . . . . . . . . . . . . . . . . . 6
Deakins v. Monaghan,
484 U.S. 193 (1989). . . . . . . . . . . . . . . . . . . . . . . . 6
Edmo v. Corizon,
935 F.3d 757 (9th Cir. 2019). . . . . . . . . . . . . . . . 11
Eisai Co. v. Teva Pharm. USA, Inc.,
564 U.S. 1001 (2011). . . . . . . . . . . . . . . . . . . . . . . 8
Faulkner v. Jones,
516 U.S. 910 (1995). . . . . . . . . . . . . . . . . . . . . . . . 7
Great W. Sugar Co. v. Nelson,
442 U.S. 92 (1979). . . . . . . . . . . . . . . . . . . . . . . . . 8
Hollingsworth v. U.S. Dist. Court for N. Dist.
of California, 562 U.S. 801 (2010) . . . . . . . . . . . . 8
Knox v. Service Employees Intern. Union,
Local 1000, 567 U.S. 298 (2012). . . . . . . . . . . . . . 5
Lehman v. MacFarlane,
529 U.S. 1106 (2000). . . . . . . . . . . . . . . . . . . . . . . 8

iii
Nelson v. Quick Bear Quiver,
546 U.S. 1085 (2006). . . . . . . . . . . . . . . . . . . . . . . 7
Radian Guaranty, Inc. v. Whitfield,
553 U.S. 1091 (2008). . . . . . . . . . . . . . . . . . . . . 8, 9
Teel v. Khurana,
525 U.S. 979 (1998). . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. Bancorp Mortg. Co. v. Bonner Mall
Partnership, 513 U.S. 18 (1994) . . . . . . . . . . . . 7, 8
U.S. v. Chrysler Corporation,
158 F.3d 1350 (D.C. Cir. 1998) . . . . . . . . . . . . . 5, 6
U.S. v. Munsingwear,
340 U.S. 36 (1950). . . . . . . . . . . . . . . . . . 1, 7, 8, 11
Univ. of Texas v. Camenisch,
451 U.S. 390 (1981). . . . . . . . . . . . . . . . . . . . . 1, 10
Village of Lincolnshire v. Int’l Union of Operating
Eng’rs Local 399, 139 S.Ct. 2692 (2019) . . . . . . . 8
Vitek v. Jones,
445 U.S. 480 (1980). . . . . . . . . . . . . . . . . . . . . . . . 7

1
INTRODUCTION
Notwithstanding the novel arguments raised in
Respondent Adree Edmo’s Response to Petitioners’
Suggestion of Mootness (“Resp.”), the appeal is moot
because Edmo has been afforded all of the relief she
requested and which the district court ordered in its
injunction. See, e.g., Univ. of Texas v. Camenisch, 451
U.S. 390, 398 (1981). Edmo’s attempt to manufacture
a live controversy over postsurgical treatment fails and
is telling of her broader motivation to secure legal
precedent now unreviewable due to mootness. The
parties never litigated the necessity of postsurgical
treatment and the district court did not order any such
treatment. Regardless, Petitioners do not dispute
Edmo’s need for postsurgical treatment – now that she
has received the surgery – and have been providing
such treatment without court order.
Contrary to Edmo’s representations, this Court’s
“established practice” is to vacate the underlying
judgment and orders against Petitioners, especially
when mootness occurred due to no fault of Petitioners.
U.S. v. Munsingwear, 340 U.S. 36, 39 (1950). Vacatur
is not only necessary, but is the most equitable solution
to prevent the significant legal issues and procedural
ambiguities in the record from “spawning any legal
consequences” that prejudice the parties on remand or
arise from the broad-reaching circuit court decision
that directly conflicts with this Court’s precedent and
circuit law. Munsingwear, 340 U.S. at 41.

2
ARGUMENT
1. The appeal is not saved from mootness, as
Edmo erroneously suggests, merely because
Edmo is to receive postsurgical treatment.
Edmo incorrectly suggests that a live case or
controversy exists regarding whether she is to receive
postsurgical access to a dilator and other unidentified
postsurgical treatment. Resp., 1, 8-11. There are three
primary reasons why this Court should reject Edmo’s
argument:
First, the now moot controversy in this appeal has
always been whether Edmo was to receive sex
reassignment surgery consistent with the district
court’s injunction, not whether Edmo would receive
postsurgical treatment in the event the surgery was
ultimately provided. Edmo’s attempt to cobble together
the very few references in the record to postsurgical
treatment reveals the truth: no controversy ever
existed over the postsurgical treatment to be provided
in the event Edmo received the surgery. Petitioners’
concern was never with the necessity of postsurgical
treatment, but whether Edmo could be compliant with
the rigorous postsurgical regimen. Resp., 4 (citing to
examples in the record).
Thus, the only factual finding the district court
made regarding postsurgical care was that “Ms. Edmo
has demonstrated the capacity to follow through with
the postsurgical care she would require” despite having
found it “troubling that Ms. Edmo has declined to fully
participate in the mental health treatment and
counseling sessions recommended by [Petitioner] Dr.

3
Eliason and [other mental health professionals].”
Appendix to Petition (“App.”), 182. Absent any dispute,
whatsoever, regarding postsurgical care, the district
court did not order Petitioners to provide treatment
other than what was “reasonably necessary to provide
Ms. Edmo gender confirmation surgery.” App. 201.
Edmo’s overly-broad reading of the injunction was
rejected by the Ninth Circuit, which interpreted the
relief the district court ordered narrowly and not
requiring Petitioners to provide any treatment after
the surgery was accomplished:
The order, read in context, requires defendants
to provide GCS, as well as “adequate medical
care” that is “reasonably necessary” to
accomplish that end – not every conceivable form
of adequate medical care.
App. 137 (emphasis added). Edmo’s argument that the
district court and Ninth Circuit intended to order
Petitioners to also provide her with postsurgical care
into perpetuity is neither supported by the record, nor
relevant absent a live controversy.
Second, there is simply no dispute among the
parties that postsurgical treatment, including Edmo’s
access to a dilator, is medically necessary now that
Edmo has received the surgery. Nor is there a live
question whether Petitioners are to provide Edmo with
medically-necessary postsurgical treatment. Indeed,
Petitioners have already made a number of special
arrangements to provide Edmo appropriate
postsurgical treatment since she received the surgery
on July 10, 2020. Edmo has been held in special
housing so she can be monitored by medical staff and

4
receive access to necessary supplies. Prison officials
have transported Edmo to every postoperative
appointment scheduled by her surgeon to date and will
transport Edmo to the final postoperative visit in
October. Edmo’s conclusory allegation that “Petitioners
failed to provide her with access to dilation for several
days” since her surgery is incorrect.1 Resp., 7.
Regardless, the unverified accusation is not cause to
question Petitioners’ commitment to meet Edmo’s
postsurgical medical needs absent judicial
intervention.2
1

Edmo has been provided access to the dilator three times per day in
the medical unit at the women’s prison in which she is currently
housed. For the short period of time she was housed in general
population at the women’s prison, Edmo missed three days of dilation
in early August despite medical staff directing her to come to medical
to dilate. Subsequently, staff at the facility transferred her from a cell
in general population to a cell in the medical unit where the dilator is
securely stored, further ensuring Edmo’s ability to dilate.

2

Petitioners strongly dispute Edmo’s mischaracterization of a “history
of Petitioners’ refusals to provide care in this case” requiring judicial
intervention. Resp. 7. Edmo has not, and cannot, point to any instance
in the record where Petitioners have refused or failed to carry out an
order of the district court. Petitioners’ success in obtaining a stay of
the injunction pending appeal cannot be construed as a “refusal” to
provide care; nor can Petitioners’ diligent efforts to appeal or seek
clarification of the district court’s orders. Additionally, Edmo’s
assertion that the district court held a series of status conferences to
“enforce Petitioners’ compliance with injunction” is not accurate. Resp.
5-6. The status conferences were held largely to advise the district
court of the status of the appeal and address complications with
scheduling pre-surgical treatment and contacting a surgeon. The
district court repeatedly encouraged the parties to meet and confer on
pre-surgical matters outside the presence of the court, contradicting
Edmo’s claims of the district court’s need to force Petitioners’
compliance.

5
Third, Edmo’s assertion that the appeal is not moot,
even though she has now received the irreversible
surgery, is belied by the case law Edmo cites as support
in her brief. Resp. 9-11. Unlike in Knox v. Service
Employees Intern. Union, Local 1000, Petitioners here
took no voluntary action designed to moot their appeal.
567 U.S. 298, 307 (2012) (“Such postcertiorari
maneuvers designed to insulate a decision from review
by this Court must be viewed with a critical eye.”) To
the contrary, Petitioners made every attempt to
prevent their appeal from becoming moot. Suggestion
of Mootness (“S.M.”), 1-3.3 Further, a remaining dispute
in Knox over the adequacy of the refund notice saved
that appeal from mootness. Id. at 307-08. Here, there
is no dispute over the adequacy of the surgery Edmo
received.
In U.S. v. Chrysler Corporation, the appellate court
held the appeal was not moot because there was still
“substantial relief that can be afforded by this court.”
158 F.3d 1350, 1353-54 (D.C. Cir. 1998) (“If Chrysler
prevails on the merits, it will avoid [] obligations
imposed by the District Court, as well as any monetary
penalties that might be sought for the alleged
violations of the Act.”) Similarly, in Calderon v. Moore,
3

Edmo’s inference that Petitioners were untimely in raising
mootness is without merit, unnecessary, and an attempt to distract
from Edmo’s decision not to address the obvious mootness issue in
her August 10, 2020 Brief in Response. Petitioners’ application for
stay, filed contemporaneously with the Petition on May 6, 2020,
advised this Court the appeal will be mooted if Edmo receives the
surgery. In opposing the stay, Edmo did not dispute that the
appeal would be mooted if she received the surgery. When Edmo
did not address mootness in her August 10 brief, Petitioners filed
the Suggestion of Mootness fourteen days later.

6
the appeal was not moot because a decision on the
merits in the State’s favor “would release it from the
burden of the new trial itself.” 518 U.S. 149, 150 (1996).
In contrast to both Chrysler and Calderon, there is no
longer any actual relief this Court can provide any
party after a ruling on the merits. The surgery is
permanent and irreversible, and Edmo has no other
claims for equitable relief before this Court. See, e.g.,
Deakins v. Monaghan, 484 U.S. 193, 199 (1989)
(holding appeal was moot when the plaintiff no longer
had any remaining claims for equitable relief).
Edmo’s citation to Chafin v. Chafin also does not
support her argument and “confuses mootness with the
merits.” 568 U.S. 165, 174 (2013). In Chafin, an appeal
regarding the district court’s authority to order the rereturn of a child to the United States was not moot
because of a “live dispute between the parties over
where their child will be raised….” Id. at 180. Here, no
unsettled dispute exists because Edmo’s surgery is
irreversible.
Edmo’s reliance on Camreta v. Greene, 563 U.S. 692
(2011) is equally misplaced and actually supports
Petitioners’ request for vacatur. There, the appeal
challenging the Ninth Circuit Court of Appeal’s
decision limiting a social worker’s ability to interview
a minor child was moot when the child moved out of
the appellate court’s jurisdiction, had no plans to
return, and was only months away from her 18th
birthday. The Court held that the minor child “faces
not the slightest possibility of being seized in a school
in the Ninth Circuit’s jurisdiction as part of a child
abuse investigation.” Id. at 711. Similarly, because

7
Edmo has received the irreversible procedure the
district court ordered, there is no possibility the same
allegedly wrongful behavior of denying her the
vaginoplasty can recur.4
2. Vacating the lower courts’ orders and
injunction against Petitioners is the most
appropriate and equitable solution under the
unique circumstances of this case.
Edmo misapplies and misinterprets the cases she
cites in support of her position that vacatur is not
warranted. Edmo relies on U.S. Bancorp Mortg. Co. v.
Bonner Mall Partnership to suggest that vacatur is an
“extraordinary remedy” and uncommon. Resp. 12. But,
the issue in Bonner Mall was whether “courts should
vacate where mootness results from a settlement [by
the parties on appeal].” 513 U.S. 18, 23 (1994). If so,
“the losing party has voluntarily forfeited his legal
remedy by the ordinary process of appeal or certiorari,
thereby surrendering his claims to the equitable
remedy of vacatur.” Id. at 25.5
Importantly, Bonner Mall did not disavow the
seminal precedent in Munsingwear that vacatur is the
4

For the same reasons, Edmo’s citation to Vitek v. Jones, 445 U.S.
480 (1980) is unpersuasive. While there remained a possibility that
the inmate in Vitek could again be transferred to a mental hospital
in violation of his constitutional rights, Edmo cannot again be
denied a vaginoplasty.

5

Edmo points to two other opinions for the proposition that this
Court “dismiss[ed] appeal[s] from injunction decree as moot but
declining to vacate.” Resp. at 12 (citing Nelson v. Quick Bear
Quiver, 546 U.S. 1085 (2006); Faulkner v. Jones, 516 U.S. 910
(1995)). However, vacatur was never analyzed, let alone addressed.

8
“established practice of this Court in dealing with a
civil case from a court in the federal system which has
become moot while on its way here or pending our
decision on the merits….” 340 U.S. 36, 39-40.6 In fact,
Bonner Mall reaffirmed that “mootness by
happenstance provides sufficient reasons to vacate.”
513 U.S. 18, n. 3. It was undisputed in Bonner Mall
that “vacatur must be decreed for those judgments
whose review is … ‘prevented through happenstance’ –
that is to say where a controversy presented for review
has ‘become moot due to circumstances unattributable
to any of the parties.” Id. at 23 (internal citations
omitted). This appeal, of course, became moot not
because of a voluntary settlement or any action of
Petitioners. Petitioners timely and repeatedly
requested the injunction be stayed to prevent the
appeal from becoming moot. S.M. 1-3.
Bonner Mall does stand as a reminder that vacatur
is an equitable doctrine that must be in a manner that
is “most consonant with justice” and take account of the
public interest. 513 U.S. at 24, 26. However, Edmo is
6

While Petitioners assert the merits of this appeal are cert-worthy,
this Court routinely grants certiorari for the limited purpose of
vacating the lower court’s judgment without ever finding that
certiorari would have been granted had the case not become moot.
See, e.g., Blue Water Navy Vietnam Veterans Ass’n, Inc. v. Wilkie,
139 S. Ct. 2740 (2019); Village of Lincolnshire v. Int’l Union of
Operating Eng’rs Local 399, 139 S.Ct. 2692 (2019); Eisai Co. v.
Teva Pharm. USA, Inc., 564 U.S. 1001 (2011); Hollingsworth v.
U.S. Dist. Court for N. Dist. of California, 562 U.S. 801 (2010);
Radian Guar., Inc. v. Whitfield, 553 U.S. 1091 (2008); Lehman v.
MacFarlane, 529 U.S. 1106 (2000); Teel v. Khurana, 525 U.S. 979
(1998); Great W. Sugar Co. v. Nelson, 442 U.S. 92, 93-94 (1979)
(per curiam).

9
wrong to suggest that vacatur is not equitable, just,
and appropriate under the circumstances of this case.
The important substantive issues, as well as the
awkward procedural posture of this case, counsel that
vacatur is not only appropriate, but necessary to
ensure a just and equitable end to the underlying
decisions that Petitioners are now unable to challenge
due to no conduct of their own.
One of the main objectives of vacatur is to preclude
a court of appeals’ decision on constitutional questions
from governing future cases where a party was
precluded from obtaining review of these issues at no
fault of their own. See e.g., Camreta, 563 U.S. 692, 713
(2011) (holding the point of vacatur is to prevent
unreviewable constitutional decisions ‘from spawning
any legal consequence” so that no party is harmed by
what this Court called a “preliminary” adjudication)
(internal citations omitted); Radian Guaranty, Inc. v.
Whitfield, 553 U.S. 1091 (2008) (vacating judgment and
remanding to district court to dismiss where party
seeking vacatur argued, in part, the court of appeal’s
decision was irreconcilable with this Court’s
precedent). The posture of Edmo’s case is such that the
district court wrongly issued an injunction that was
then affirmed by a published and precedential court of
appeal’s opinion rendering broad legal holdings that
conflict with Eighth Amendment constitutional
standards of other circuit courts and this Court.
Therefore, it is just and in the public interest to vacate
the lower court’s decisions and judgment as to
Petitioners.

10
Finally, the unprecedented and confusing
procedural posture of this case confirms that vacatur is
equitable and just. Edmo suggests that Petitioner Dr.
Scott Eliason does not deserve a jury trial on the
Eighth Amendment claim and contends Petitioners can
later appeal the liability decision after the damages
case. Resp. at 13-14. Edmo misconstrues the record and
her own prior representations of the procedure below.
Edmo filed a Motion for Preliminary Injunction that
was heard during an extremely truncated evidentiary
hearing after only limited discovery. Edmo v. Idaho
Dep’t. of Corr., No. 1:17-cv-151 (D. Idaho) (“Dist. Ct.”),
Dkt. 62. Edmo never moved to consolidate the
preliminary injunction hearing with a final trial on the
merits, but the district court held – after the hearing –
that the hearing was “effectively converted” into a full
and final trial on the merits. App. 185-86, n. 1.
Petitioners charged that the district court did not
provide clear and unambiguous notice of its intention
to convert the hearing into a full trial on the merits as
required by Camenisch, 451 U.S. 390, 395 (1981). Edmo
v. Idaho Dep.’t of Corr. v. Edmo, No. 19-35017 (9th Cir.),
Dkt. 11, pp. 72-75.
In her own opening brief before the Ninth Circuit,
Edmo too argued that the “District Court did not
convert the preliminary injunction hearing to a
final trial on the merits.” 9th Cir. Dkt. 32, pp. 28, 6061, 64 and n. 11 (emphasis added). It was also unclear
to the Ninth Circuit whether the hearing was a final
trial on the merits because, during the appeal, it issued
a limited remand asking the district court to clarify if
it was also granting permanent injunctive relief and, if
so, whether Edmo actually succeeded on a final trial of

11
the merits of her Eighth Amendment claim. Id. at Dkt.
90. Only then did the district court clarify it had
ordered a permanent injunction whereby Edmo
purportedly succeeded on the merits. Id. at Dkt. 91.7
Subsequently, the Ninth Circuit held that the hearing
was a final trial on the merits and any jury trial was
waived by Petitioners. Edmo v. Corizon, 935 F.3d 757,
800-803 (9th Cir. 2019).
Given the significant ambiguities and
inconsistencies with the procedural posture below, and
Edmo’s own position that no full and final trial on the
merits has yet been had, the only equitable solution is
to vacate the injunction against Petitioners to prevent
the judgment from “spawning any legal consequences.”
Munsingwear, 340 U.S. at 41.
CONCLUSION
Petitioners respectfully request the Court enter an
order dismissing the appeal as moot and partially
vacating the lower court’s orders and judgment
consistent with Petitioners’ prior request. S.M. 8.

7

The district court continues to be inconsistent as to the
procedural posture of this case because it indicated in a status
conference earlier this year that, although the court has ruled on
the Eighth Amendment claim in terms of injunctive relief, “I
think the parties are entitled to a jury determination on
liability” on that claim. Dist. Ct., Dkt. 269 (Tr. 8:16-19) (emphasis
added). Thus, the district court’s understanding is inconsistent
with Edmo’s assertion that liability under the Eighth Amendment
for purposes of damages has already been established against Dr.
Eliason. Resp. 13-14.

12
Respectfully submitted,
DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN
PARSONS BEHLE & LATIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Petitioner
Scott Eliason, M.D.

September 11, 2020

LAWRENCE G. WASDEN
Attorney General State of Idaho
BRIAN KANE
Assistant Chief Deputy
MEGAN A. LARRONDO
Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
MOORE ELIA KRAFT & HALL, LLP
P.O. Box 6756
Boise, Idaho 83707
(208) 336-6900
brady@melawfirm.net
Counsel for Petitioners
the Idaho Department of Correction
and Henry Atencio, Jeff Zmuda,
and Al Ramirez, in their official
capacities

